wl

C@QCKLE

Le g al Brie fs E-Mail Address:

contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 19-247
CITY OF BOISE,
Petitioner,
v,

ROBERT MARTIN, LAWRENCE LEE SMITH,
ROBERT ANDERSON, JANET F. BELL, PAMELA S.
HAWKES, AND BASIL E. HUMPHREY,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF STATES OF
IDAHO, ALASKA, INDIANA, LOUISIANA, NEBRASKA, SOUTH DAKOTA, AND TEXAS
AS AMICI CURIAE IN SUPPORT OF PETITIONER in the above entitled case complies with the
typeface requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook
12 point for the text and 10 point for the footnotes, and this brief contains 5997 words, excluding
the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed:and sworn to before me this 24th day of September, 2019.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . ‘
State of Nebraska c SLE Qudraw- ,
My Commission Expires Nov 24, 2020

Notary Public Affiant 38476

 

 
